Office of Material Loss Reviews
Report No. MLR-10-003


Material Loss Review of New Frontier Bank,
Greeley, Colorado




                                  October 2009
                                      Executive Summary

                                      Material Loss Review of New Frontier Bank,
                                      Greeley, Colorado
                                                                                       Report No. MLR-10-003
                                                                                                October 2009

Why We Did The Audit

On April 10, 2009, the Banking Board of the Colorado Division of Banking (CDB) closed New Frontier
Bank (New Frontier) of Greeley, Colorado, and named the FDIC as receiver. On April 23, 2009, the
FDIC notified the Office of Inspector General (OIG) that New Frontier’s total assets at closing were
$1.8 billion and the estimated loss to the Deposit Insurance Fund (DIF) was $668.9 million. As required
by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG conducted a material loss review of
the failure of New Frontier.

The audit objectives were to (1) determine the causes of New Frontier’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of New Frontier, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background

New Frontier was established in December 1998 as a state-chartered, non-member bank. The institution
had a total of three locations, consisting of a main office in Greeley, Colorado, and two full-service
branches in nearby Windsor and Longmont, Colorado. New Frontier was wholly owned by the New
Frontier Bancorp (Bancorp), a one-bank holding company. Much of New Frontier’s lending consisted of
acquisition, development, and construction (ADC) loans in Colorado and agricultural production,
farmland, and dairy (agricultural) loans in Colorado, Kansas, and Texas.

Audit Results

Causes of Failure and Material Loss

New Frontier failed because its Board and management did not implement adequate risk management
practices pertaining to (1) rapid growth and significant concentrations of ADC and agricultural loans, (2)
loan underwriting and credit administration, and (3) heavy reliance on non-core funding sources.
Examiners expressed concern about New Frontier’s risk management practices in the years preceding the
institution’s failure and made a number of recommendations for improvement. However, the actions
taken by New Frontier’s Board and management to address these concerns and recommendations were
not timely or adequate. Also contributing to New Frontier’s losses was an incentive compensation
program that paid a commission to a senior lending official based on the volume of loans and fees that the
official originated.

When the institution’s primary real estate and agricultural lending markets began to deteriorate in 2007
and 2008, respectively, weaknesses in New Frontier’s risk management practices translated into a decline
in the quality of the institution’s ADC and agricultural loans. The losses and provisions associated with
this decline quickly depleted the institution’s capital and earnings, and significantly impaired its liquidity
position. CDB closed New Frontier based on a determination that the institution did not have adequate
capital, its business was being conducted in an unlawful or unsound manner, and it was unable to
continue normal operations.




                                  To view the full report, go to www.fdicig.gov.
   Executive Summary
                                      Material Loss Review of New Frontier Bank,
                                      Greeley, Colorado
                                                                                      Report No. MLR-10-003
                                                                                               October 2009

The FDIC’s Supervision of New Frontier

The FDIC, in conjunction with CDB, provided ongoing supervision of New Frontier through regular on-
site risk management examinations, periodic on-site visitations, and quarterly off-site reviews. The FDIC
also placed New Frontier on its supervisory watch list in February 2007 and coordinated with CDB to
issue one informal enforcement action and one formal enforcement action, both in 2008, to address weak
risk management practices identified by examiners. Further, the FDIC performed daily monitoring of the
institution’s liquidity position beginning in November 2008. Through its supervisory efforts, the FDIC
identified risks in New Frontier’s management practices and operations and brought these risks to the
attention of the institution’s Board and management. These risks included weak management practices
pertaining to the institution’s rapid loan growth, ADC and agricultural loan concentrations, loan
underwriting and credit administration practices, and reliance on non-core funding sources.

The FDIC relied principally on recommendations to address risks identified by examiners and did not
impose enforcement actions until early 2008. In retrospect, a stronger supervisory response at earlier
examinations may have been prudent in light of the extent and nature of the risks and the institution’s lack
of adequate or timely corrective action. For example, the FDIC could have imposed an enforcement
action requiring that New Frontier commit to a written plan and timeline for addressing key risks
identified by examiners and monitored New Frontier’s performance relative to the plan. Stronger
supervisory action may have influenced New Frontier’s Board and management to constrain their
excessive risk taking during the institution’s rapid growth period. It may also have prompted the Board
and management to take more timely and adequate action to address examiner concerns, thereby
mitigating, to some extent, the losses incurred by the DIF.

With regard to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for New Frontier. However, PCA’s effectiveness in
mitigating losses to the DIF was limited because PCA did not require action until the institution was at
serious risk of failure. In the case of New Frontier, capital was a lagging indicator of the institution’s
financial health. New Frontier was considered well capitalized for PCA purposes until the FDIC and
CDB issued a joint cease and desist order on December 2, 2008, that included a capital provision. As a
result of the order, New Frontier’s capital category dropped from well capitalized to adequately
capitalized for PCA purposes. However, examiners had already concluded at that time that the overall
financial condition of the institution was unsound and that the probability of its failure was high.


Management Response

On October 20, 2009, the Director, DSC, provided a written response to a draft of this report. The
response is provided in its entirety as Appendix 4 of this report. In its response, DSC reiterated the OIG’s
conclusions regarding the cause of New Frontier’s failure. Regarding our assessment of the FDIC’s
supervision of New Frontier, DSC cited several supervisory activities, discussed in our report, that were
undertaken to address key risks at the institution prior to its failure. In its response, DSC also recognized
that strong supervisory attention is necessary for institutions like New Frontier that have high CRE and
ADC concentrations supported by volatile funding sources. Accordingly, DSC has issued updated
guidance reminding examiners to take appropriate action when such risks are imprudently managed.




                                  To view the full report, go to www.fdicig.gov.
                               Contents
                                                                     Page
Background                                                             2

Causes of Failure and Material Loss                                    2
  Rapid Growth and Loan Concentrations                                 3
  Loan Underwriting, Credit Administration, and Risk Analysis and      5
    Recognition Practices
  Reliance on Non-Core Funding                                         7
  Implementation of Examiner and Auditor Recommendations               9
  Incentive Compensation Program and Institution Culture              10

The FDIC’s Supervision of New Frontier                                11
  Supervisory History                                                 11
  Supervisory Response to Key Risks                                   13
  Implementation of PCA                                               13

Corporation Comments                                                  15

Appendices
  1. Objectives, Scope, and Methodology                               16
  2. Glossary of Terms                                                18
  3. Acronyms                                                         19
  4. Corporation Comments                                             20

Tables
   1. Selected Financial Information for New Frontier                  2
   2. New Frontier’s Non-Core Funding Sources                          7
   3. On-site Examinations and Visitations of New Frontier            12
   4. New Frontier’s Capital Levels Relative to PCA Thresholds for    14
       Well Capitalized Institutions

Figures
   1. Composition and Growth of New Frontier’s Loan Portfolio          3
   2. New Frontier’s ADC Loan Concentration Relative to Peers          4
   3. New Frontier’s Net Non-Core Funding Dependence Compared          8
      to Peers
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     October 23, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of New Frontier Bank, Greeley,
                                          Colorado (Report No. MLR-10-003)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the FDIC
Office of Inspector General (OIG) conducted a material loss1 review of the failure of
New Frontier Bank (New Frontier), Greeley, Colorado. The Banking Board of the
Colorado Division of Banking (CDB) closed the institution on April 10, 2009, and named
the FDIC as receiver. On April 23, 2009, the FDIC notified the OIG that New Frontier’s
total assets at closing were $1.8 billion and the estimated loss to the Deposit Insurance
Fund (DIF) was $668.9 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to: (1) determine the causes of New
Frontier’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision2 of New Frontier, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of New
Frontier’s failure and the FDIC’s efforts to ensure that New Frontier’s Board of Directors
(Board) and management operated the institution in a safe and sound manner. The report
does not contain formal recommendations. Instead, as major causes, trends, and common
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
characteristics of financial institution failures are identified in our material loss reviews,
we will communicate those to management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of DSC’s supervision
program and make recommendations as warranted. Appendix 1 contains details on our
objectives, scope, and methodology. Appendix 2 contains a glossary of key terms and
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background
New Frontier was established in December 1998 as a state-chartered, non-member bank.
The institution had a total of three locations, consisting of a main office in Greeley,
Colorado, and two full-service branches in nearby Windsor and Longmont, Colorado.
Much of New Frontier’s lending consisted of acquisition, development, and construction
(ADC) loans in Colorado, and agricultural production, farmland, and dairy (agricultural)
loans in Colorado, Kansas, and Texas. New Frontier’s ADC and agricultural loans were
negatively impacted when the institution’s primary real estate lending market
experienced a downturn in 2007 and commodity prices for dairy products declined in
2008.

New Frontier was wholly owned by the New Frontier Bancorp (Bancorp), a one-bank
holding company. Collectively, the institution’s directors owned approximately
15 percent of Bancorp’s outstanding stock. However, no individual shareholder owned
more than 10 percent of Bancorp, and the company’s shares were widely-held. Table 1
summarizes selected financial information for New Frontier for the quarter ending
March 31, 2009, and for the 4 preceding calendar years ending December 31.

Table 1: Selected Financial Information for New Frontier
 Financial Measure         Mar-09         Dec-08        Dec-07         Dec-06         Dec-05
 Total Assets ($000s)    $1,774,588     $2,009,347     $1,973,669     $1,322,021     $795,404
 Total Deposits ($000)   $1,496,347     $1,676,003     $1,599,963     $1,074,788     $643,483
 Gross Loans & Leases
                         $1,535,516     $1,591,138     $1,607,464     $1,049,353     $615,056
 ($000s)
 Net Income ($000s)       ($98,040)      ($11,340)      $11,842        $14,549        $7,571
 Source: OIG analysis of Uniform Bank Performance Reports (UBPR) and Consolidated Reports of
 Condition and Income (Call Report) for New Frontier.




Causes of Failure and Material Loss

New Frontier failed because its Board and management did not implement adequate risk
management practices pertaining to (1) rapid growth and significant concentrations of
ADC and agricultural loans, (2) loan underwriting and credit administration, and (3)
heavy reliance on non-core funding sources. Examiners expressed concern about New
Frontier’s risk management practices in the years preceding the institution’s failure and


                                                 2
made a number of recommendations for improvement. However, the actions taken by
New Frontier’s Board and management to address these concerns and recommendations
were not timely or adequate. Also contributing to New Frontier’s losses was an incentive
compensation program that paid a commission to a senior lending official based on the
volume of loans and fees that the official originated. When the institution’s primary real
estate and agricultural lending markets began to deteriorate in 2007 and 2008,
respectively, weaknesses in New Frontier’s risk management practices translated into a
decline in the quality of the institution’s ADC and agricultural loans. The losses and
provisions associated with this decline quickly depleted the institution’s capital and
earnings, and significantly impaired its liquidity position. CDB closed New Frontier
based on a determination that the institution did not have adequate capital, its business
was being conducted in an unlawful or unsound manner, and it was unable to continue
normal operations.

Rapid Growth and Loan Concentrations

Following its establishment in 1998, New Frontier embarked on a business strategy of
rapid asset growth. Much of this growth was fueled through the institution’s loan
portfolio and included risky ADC and agricultural lending. New Frontier’s growth was
particularly pronounced during 2005 through 2007, when the institution’s growth rate for
net loans and leases was in the 94th percentile or higher for its peer institutions.
Examiners noted that New Frontier’s growth during this period was well in excess of the
institution’s internal growth plans. In addition, the sophistication of New Frontier’s risk
identification and monitoring systems did not keep pace with this growth, limiting the
institution’s ability to effectively identify, measure, monitor, and control risks in its
operations. Figure 1 illustrates the general composition and growth of New Frontier’s
loan portfolio in the years preceding the institution’s failure. As reflected in the figure,
concentrations in ADC and agricultural loans existed in each of these years.

Figure 1: Composition and Growth of New Frontier’s Loan Portfolio

                                      $1,800                                              $1,607      $1,591     $1,536
                                                     All Other Loans
                                      $1,600
                                                     Agricultural Loans
  Gross Loans and Leases (Millions)




                                      $1,400         ADC Loans
                                                                                          $724        $694        $645
                                      $1,200                                 $1,049
                                      $1,000

                                       $800                   $615           $498
                                                                                          $376        $449        $449
                                       $600       $424
                                                              $309           $226
                                       $400       $215
                                                              $131                        $507        $448        $442
                                       $200       $103                       $325
                                                  $106        $175
                                         $0
                                               Dec-2004   Dec-2005        Dec-2006    Dec-2007     Dec-2008    Mar-2009
                                                                             Period Ended


Source: OIG analysis of UBPRs and Call Reports for New Frontier.




                                                                                      3
The FDIC’s December 2006 guidance, entitled Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, recognizes that ADC concentrations
pose substantial risks. Such risks include unanticipated earnings and capital volatility
during a sustained downturn in the real estate market. The December 2006 guidance
defines institutions with significant concentrations, in part, as those institutions reporting
loans for construction, land development, and other land (i.e., ADC) representing
100 percent or more of total capital. Due to the risks associated with ADC lending,
regulators consider institutions with significant ADC concentrations to be of greater
supervisory concern. As reflected in Figure 2, New Frontier maintained a concentration
in ADC loans that was significantly higher than its peer averages and above the criteria
for ADC concentrations warranting greater supervisory concern in the years preceding
the institution’s failure.

Figure 2: New Frontier’s ADC Loan Concentration Relative to Peers

                               600
                                                                                                    543%*
  ADC Loans to Total Capital




                               500                New Frontier
                                                  Peer Group Average
                               400

                                                                    275%
                               300
                                        243%        239%                             246%

                               200

                                                                    147%                 139%
                               100
                                        104%        136%                                            128%

                                0
                                             5




                                                         6




                                                                         7




                                                                                          8




                                                                                                       9
                                                                                                     00
                                          00




                                                      00




                                                                      00




                                                                                       00




                                                                                                   -2
                                       -2




                                                   -2




                                                                   -2




                                                                                    -2




                                                                                                ar
                                        c




                                                    c




                                                                    c




                                                                                     c
                                     De




                                                 De




                                                                 De




                                                                                  De




                                                                                                M




                                                                   Period Ended
Source: OIG analysis of UBPRs for New Frontier.
* The sharp increase in the ADC loan concentration in 2009 resulted from a decline in New Frontier’s capital
 rather than growth in ADC lending.

In addition to an ADC loan concentration, New Frontier also maintained a concentration
in agricultural loans. From December 2005 to March 2009, New Frontier’s agricultural
loan concentration ranged from a low of 166 percent to a high of 542 percent of total
capital. Similar to the ADC loan concentration, New Frontier experienced a sharp
increase in its agricultural loan concentration in 2009 caused by a decline in capital rather
than growth in agricultural lending.

In each Report of Examination (ROE) issued from 2004 through 2006, examiners
expressed concern regarding the aggressive growth of New Frontier’s loan portfolio, the
burden that this growth was placing on the institution’s lending staff, and the institution’s



                                                                         4
concentration in ADC and agricultural lending. In the November 2006 ROE, New
Frontier’s management was reminded of the importance of sound loan underwriting and
credit administration to the continued satisfactory credit quality of its loan portfolio,
given the institution’s aggressive growth and credit concentrations. At that time, New
Frontier’s total adversely classified assets to Tier 1 Capital and the Allowance for Loans
and Lease Losses (ALLL) was a manageable 27 percent, up slightly from the 24 percent
reported in the November 2005 ROE. Although New Frontier’s target real estate lending
market began to decline in 2007, the institution continued to focus on ADC lending. At
the time of the October 2007 examination, New Frontier’s total adversely classified
assets to Tier 1 Capital and ALLL had jumped to 85 percent, with much of the increase
due to poorly underwritten ADC loans.

By the September 2008 examination, New Frontier’s asset quality had become critically
deficient, with approximately $265 million in adversely classified assets representing
134 percent of Tier 1 Capital and ALLL. Further, loans designated special mention had
jumped from approximately $3.6 million in the prior examination to approximately
$258 million. Much of the increase in special mention loans was attributed to poor
underwriting and administration of agricultural loans. A final site visitation of New
Frontier in March 2009 found that adversely classified assets totaled over 260 percent of
Tier 1 Capital and ALLL and that assets classified as loss totaled over $40 million. The
majority of these adversely classified assets consisted of ADC and agricultural loans.
Between December 2005 and March 2009, New Frontier’s net loan charge-offs (i.e.,
losses) totaled $82 million, of which $37 million pertained to ADC loans and $23 million
pertained to agricultural loans.

Loan Underwriting, Credit Administration, and Risk Analysis and
Recognition Practices

Weaknesses in New Frontier’s loan underwriting, credit administration, and risk analysis
and recognition practices were a contributing factor in the asset quality problems that
developed when the institution’s real estate and agricultural lending markets began to
deteriorate in 2007 and 2008, respectively. Although examiners noted some weaknesses
in these areas during the October 2004 and November 2005 examinations, examiners
determined that the institution’s controls were generally satisfactory. During the
November 2006 examination, examiners identified additional and repeat weaknesses in
loan underwriting and credit administration and commented that the institution’s
management needed to be more aggressive in identifying credit weaknesses, given the
extraordinary growth of the institution’s loan portfolio. Examiners further commented
that the institution’s high level of past due and non-accrual loans, above peer average
loan losses, and largely unseasoned and growing loan portfolio underscored the
importance of sound lending standards to limit further deterioration in loan quality.

A significant number of loan underwriting, credit administration, and risk analysis and
recognition weaknesses, particularly in the areas of ADC and agricultural lending, were
identified in each of the examinations and visitations that followed the November 2006
examination. Such weaknesses included:



                                            5
Loan Underwriting

   •   Rapid loan growth that relied on a continuing expansion in real estate values and
       sales, rather than on prudent underwriting and monitoring practices.
   •   Routine and significant contraventions of internal loan policies.
   •   Insufficient financial analysis (i.e., global cash flow and collateral analysis) of
       complex loans involving multiple parties to ensure repayment sources and
       collateral coverage were adequate.
   •   Liberal and high-risk loan structures.
           o Land development loans originated at 100 percent of the land’s value.
           o ADC loans originated with principal and interest due at maturity (i.e., no
                interest service required during construction), no interest expense factored
                into the project’s construction budget, no interest reserves considered in
                loan-to-value calculations, and optimistic collateral valuations.
   •   Liberal loan extensions and renewal practices.
           o Extending additional credit to problem borrowers without documenting a
                supporting rationale.
           o Delaying the reversal of uncollected accrued interest by extending loans
                and capitalizing unpaid interest, renewing loans without payment of
                interest, and granting loans to cover accrued interest.
           o Using administrative extensions to extend past-due credits without
                obtaining the borrower’s signature when the extension was granted.

Credit Administration

   •   Failure to adequately supervise and control the disbursement of construction
       proceeds, resulting in over-advancing construction credits with collateral
       shortfalls, delinquencies, and defaults.
           o Performing no and/or infrequent collateral inspections.
           o Over-advancing loan funds.
           o Allowing significant cost overruns.
   •   Allowing borrowers to operate outside of established limitations.
   •   Failure to obtain accurate and current financial statements, appraisals and/or
       evaluations, and collateral perfection for loans.
   •   Growing a loan portfolio to a size that could not be reasonably managed by the
       institution’s lending staff.
   •   Failure to ensure that agricultural loans had appropriate inspections, cash flow
       projections, supporting documentation, and verifiable collateral.

Risk Analysis and Recognition Practices

   •   Insufficient level of credit expertise within the institution.
   •   Inadequate ALLL methodology and/or ALLL position.
   •   Failure to properly report nonaccrual loans and downgrade credits when
       appropriate.
   •   Failure to perform portfolio-level stress testing or sensitivity analysis.


                                             6
Reliance on Non-Core Funding

In the years preceding its failure, New Frontier became increasingly dependent on non-
core funding sources, particularly brokered deposits, to fund rapid growth in its loan
portfolio and maintain adequate liquidity. Table 2 below provides detailed information
regarding New Frontier’s non-core funding sources during the years prior to its failure.
When properly managed, such funding sources offer important benefits, such as ready
access to funding in national markets when core deposit growth in local markets lags
behind planned asset growth. However, non-core funding sources also present potential
risks, such as higher costs and increased volatility. According to the DSC Risk
Management Manual of Examination Policies, placing heavy reliance on potentially
volatile funding sources to support asset growth is risky because access to these funds
may become limited during distressed financial or economic conditions. Under such
circumstances, institutions could be required to sell assets at a loss in order to fund
deposit withdrawals and other liquidity needs.

Table 2: New Frontier’s Non-Core Funding Sources
           Period Ended             Time Deposits of            Brokered           Federal Home
                                    $100,000 or More            Deposits            Loan Bank
                                        ($000s)                  ($000s)            Borrowings
                                                                                      ($000s)
              Mar-09                     $267,447               $698,594               $199,374

               Dec-08                    $290,688               $723,032               $156,538

               Dec-07                    $399,883               $727,994               $184,973

               Dec-06                    $635,147               $327,481               $105,458

               Dec-05                    $324,069               $120,583               $78,241
    Source: OIG Analysis of UBPRs for New Frontier.

Figure 3 illustrates New Frontier’s net non-core funding dependence ratio3 between
December 2005 and the institution’s failure. During this period, New Frontier’s net non-
core funding dependence ratio was in the 92nd to 97th percentile for its peer group. Such
rankings indicate that the institution’s potential volatile funding dependence was higher
than almost all of the other institutions in New Frontier’s peer group.




3
  The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year). An elevated
ratio reflects heavy reliance on potentially volatile funding sources that may not be available in times of
financial stress.


                                                      7
Figure 3: New Frontier’s Net Non-Core Funding Dependence Compared to Peers

                                              80
                                                                                    69%                              69%
 Net Non-Core Funding Dependence Ratios

                                              70
                                                                                                     63%
                                                                       58%
                                              60

                                              50          45%

                                              40                                                     35%
                                                                                                                     33%
                                                                       27%          29%
                                              30
                                                          22%
                                              20                                                      New Frontier
                                              10                                                      Peer Group Average

                                              0
                                                           5




                                                                        6




                                                                                     7




                                                                                                      8




                                                                                                                      9
                                                                                                                    00
                                                        00




                                                                     00




                                                                                  00




                                                                                                   00




                                                                                                                  -2
                                                     -2




                                                                  -2




                                                                               -2




                                                                                                -2




                                                                                                               ar
                                                      c




                                                                   c




                                                                                c




                                                                                                 c
                                                   De




                                                                De




                                                                             De




                                                                                              De




                                                                                                             M
                                                                               Period Ended
 Source: OIG analysis of the UBPRs for New Frontier.

During the November 2005 and November 2006 examinations, examiners noted that the
local market for core deposits was highly competitive and that New Frontier was
increasingly turning to non-core funding sources to support loan growth. At that time,
examiners concluded that the risk of New Frontier’s heavy dependence on non-core
funding sources was mitigated, in part, by a well-developed funds management process
and an Asset Liability Management Committee that was actively engaged in monitoring
and measuring liquidity. By the October 2007 examination, however, the FDIC had
determined that New Frontier’s liquidity was less than satisfactory. At that time, 39
percent of the institution’s deposit base consisted of brokered deposits (up from 30
percent at the prior examination). Examiners concluded that although New Frontier had
adequate systems to measure, monitor, and report liquidity, management’s continued
strategy of relying on brokered deposits to fund tremendous loan growth (which had
resulted in asset quality problems) was risky. In addition, examiners identified the
following asset liability management weaknesses:

                                          •    New Frontier’s Contingency Liquidity Plan did not assess the possible impact of
                                               high-stress events, such as deteriorating asset quality.

                                          •    The institution’s Asset Liability Management policy did not assess the potential
                                               impact of brokered deposit restrictions on the bank’s liability structure.

                                          •    Management routinely expanded the institution’s volatile liability dependence
                                               policy guidelines to accommodate significant loan growth.

Based on the results of the September 2008 examination, the FDIC determined that New
Frontier’s liquidity position had become critically deficient. By that time, the


                                                                                          8
institution’s access to external funding sources was limited and its earnings were not
sufficient to augment capital, straining liquidity. In addition, New Frontier was not able
to sell its loan portfolio without incurring additional losses. Prior to the completion of the
examination, New Frontier stipulated to a Cease and Desist Order (C&D) containing a
capital provision. Pursuant to the FDIC’s Rules and Regulations, the C&D lowered New
Frontier’s PCA capital category from well capitalized to adequately capitalized. As a
result, the institution was restricted from accepting, renewing, or rolling over brokered
deposits without a waiver from the FDIC. On February 13, 2009, the FDIC approved a
$50 million brokered deposit waiver that expired on March 31, 2009. However, the
institution was not successful in raising needed capital and negative media attention
associated with New Frontier’s public disclosure of the C&D on January 30, 2009,
resulted in a deposit run-off, further straining liquidity.

Implementation of Examiner and Auditor Recommendations

In the years preceding New Frontier’s failure, FDIC and CDB examiners expressed
repeated concern about the institution’s risk management practices and made a number of
recommendations for improvement. However, the actions taken by New Frontier’s
Board and management to address these concerns and recommendations were not timely
or adequate. A brief summary of key concerns and recommendations raised by
examiners in ROEs issued between 2004 and the institution’s failure follows.

   •   Rapid Growth. From 2004 to 2007, examiners repeatedly expressed concern
       about New Frontier’s rapid asset growth and the strain that this growth was
       placing on the institution’s lending function. In 2004, examiners recommended
       that New Frontier modify its strategic business plan to reflect realistic growth
       projections. By 2006, examiners noted that the institution’s rapid growth was
       negatively affecting loan underwriting and credit administration, and in 2007,
       examiners strongly encouraged New Frontier to slow its growth due to increasing
       asset quality problems. Based on the results of the October 2008 examination,
       New Frontier stipulated to a C&D in December 2008 that included a provision to
       develop a strategic plan containing goals for asset growth.

   •   Loan Concentrations. From 2004 until the institution’s failure, examiners
       raised continued concern about the levels of concentrations in New Frontier’s
       loan portfolio. In 2005, examiners recommended that New Frontier establish
       concentration limits by industry, and in 2006, examiners made additional
       recommendations to establish certain limits on the institution’s loan
       concentrations. In 2007, examiners criticized New Frontier’s continued focus on
       ADC lending, given the decline in the residential real estate market, and
       recommended that management reduce its exposure to residential real estate.
       New Frontier had not significantly reduced its concentrations by the October 2008
       examination, and in the December 2008 C&D, a provision was included for New
       Frontier to reduce its loan concentrations.

   •   Underwriting and Credit Administration. Between 2004 and the institution’s
       failure, examiners raised repeated concerns about New Frontier’s lending function


                                              9
       and made a number of recommendations for improvement. These concerns and
       recommendations focused on correcting deficiencies in New Frontier’s loan
       underwriting and credit administration practices and hiring additional staff to
       support loan growth. Following the October 2007 examination, New Frontier
       entered into a Memorandum of Understanding (MOU) with the FDIC that
       required, among other things, action to address the underwriting and credit
       administration deficiencies identified by examiners. The December 2008 C&D
       also required New Frontier to take specific actions to improve its loan
       underwriting and credit administration practices.

   •   Reliance on Non-Core Funding. From 2004 until the institution’s failure,
       examiners expressed repeated concern about New Frontier’s increasing reliance
       on non-core funding sources, particularly brokered deposits. In 2004, examiners
       recommended that New Frontier closely monitor and reduce its dependence on
       non-core funding sources. In 2005, examiners recommended that New Frontier
       establish guidelines for its net non-core funding dependence ratio. Further, the
       FDIC’s MOU with New Frontier required, among other things, that the institution
       minimize its dependence on volatile funding. Finally, the December 2008 C&D
       required New Frontier to reduce its dependence on volatile funding, including
       brokered deposits.

In addition to examiner concerns and recommendations, New Frontier’s external auditors
brought a number of internal control issues to the attention of New Frontier’s Board and
management that were not adequately addressed. For example, during a December 2007
external audit of New Frontier, the institution’s audit firm identified a material weakness
related to the institution’s ability to measure and maintain an appropriate ALLL.
Examiners noted in a subsequent examination and visitation in 2008 and 2009,
respectively, that New Frontier’s ALLL methodology and position were not adequate.

Incentive Compensation Program and Institution Culture

A contributing factor in New Frontier’s losses was an incentive compensation program
that paid a commission to a senior lending official based on the volume of loans and fees
that the official originated. The compensation program did not take into consideration
the quality of the loans that the senior lending official originated. During the October
2007 examination, examiners noted that more than half of the identified adverse loan
classifications were originated by the same senior lending official who benefited from the
incentive compensation program. Examiners also noted that the senior lending official
received $200,000 in commissions under the program during 2006 in addition to an
annual salary. Further, based on our analysis of examination documentation, we noted
that this same lending official had responsibility for both originating and managing
commercial loans as well as serving as a member of the institution’s loan approval
committee. Having both responsibilities presented an apparent conflict of interest.

Based on concerns raised in the October 2007 examination, New Frontier discontinued its
incentive compensation program. New Frontier also had an independent study performed
of its lending program to determine whether the size and qualifications of its lending staff


                                            10
were appropriate for the size, composition, and nature of the institution’s loan portfolio.
The study concluded, in part, that “the culture of the bank in July 2007 and prior did not
promote a conservative approach to lending. Lenders’ concerns about keeping their job
or falling out of favor with management unless aggressive loan growth occurred over-
whelmed most lenders’ discipline with underwriting, analysis, and asset quality.”
Examiners commented during the September 2008 examination that the actions taken by
the institution in response to the study were not adequate, that the lending culture
appeared to be unchanged, and that weak underwriting and administrative practices
persisted.



The FDIC’s Supervision of New Frontier
Through its supervisory efforts, the FDIC identified key risks in New Frontier’s
management practices and operations and brought these risks to the attention of the
institution’s Board and management through regular discussions and correspondence,
ROEs, and visitation reports. Key risks identified by examiners included weak risk
management practices pertaining to the institution’s rapid loan growth, ADC and
agricultural loan concentrations, loan underwriting and credit administration practices,
and reliance on non-core funding sources. The FDIC increased the level of its
supervisory attention through visitations in 2006 and 2007 based on the increasing risk
profile of New Frontier. Additional visitations were conducted in 2008 and 2009 based
on the deteriorating financial condition of the institution.

As discussed in a prior section of this report, the FDIC relied principally on
recommendations to address risks identified by examiners and did not impose
enforcement actions until early 2008. In retrospect, a stronger supervisory response at
earlier examinations may have been prudent in light of the extent and nature of the risks
and the institution’s lack of adequate or timely corrective action. Stronger supervisory
action may have influenced New Frontier’s Board and management to constrain their
excessive risk taking during the institution’s rapid growth period. It may also have
prompted the Board and management to take more timely and adequate action to address
examiner concerns, thereby mitigating, to some extent, the losses incurred by the DIF.

Supervisory History

The FDIC, in conjunction with CDB, provided ongoing supervision of New Frontier
through regular on-site risk management examinations, periodic on-site visitations, and
quarterly off-site reviews. In addition, examiners placed New Frontier on the Dallas
Regional Office’s supervisory watch list in February 2007 and performed daily
monitoring of the institution’s liquidity position beginning in November 2008. Table 3
summarizes key information pertaining to the on-site risk management examinations and
visitations that the FDIC and CDB conducted of New Frontier from October 2004 until
the institution failed.




                                             11
Table 3: On-site Examinations and Visitations of New Frontier
        Date        On-site Supervisory        Supervisory Ratings            Informal or Formal
                           Effort                   (UFIRS)*                    Action** Taken
                                                                                Institution Closed
   03/03/2009              Visitation                   555555/5
                                                                                    4/10/2009
   09/22/2008         Joint Examination                 455554/5                 C&D 12/2/2008
   06/09/2008              Visitation                 No Ratings                      None
   10/09/2007         FDIC Examination                  333232/3                 MOU 2/28/2008
   04/09/2007              Visitation                 No Ratings                      None
   11/27/2006              Visitation                 No Ratings                      None
   11/27/2006         State Examination                 222222/2                      None
   05/22/2006              Visitation                   222222/2                      None
   11/07/2005         FDIC Examination                  222222/2                      None
   10/04/2004         State Examination                 212232/2                      None
 Source: ROEs for New Frontier.
 *Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
 (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
 Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
 Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
 through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
 ** Informal enforcement actions often take the form of Bank Board Resolutions or MOUs. Formal
 enforcement actions often take the form of C&Ds, but under severe circumstances can also take the
 form of insurance termination proceedings.

As shown in Table 3, five visitations were conducted at New Frontier from 2006 to 2009
in addition to the required risk management examinations. The purpose of the visitations
conducted during 2006 and 2007 was to assess New Frontier’s risky business practices,
such as its rapid growth, loan concentrations, and dependence on non-core funding. The
purpose of the visitations conducted during 2008 and 2009 was to assess and monitor
New Frontier’s deteriorating financial condition. The FDIC and CDB issued one
informal enforcement action and one formal enforcement action between 2005 and the
institution’s failure. A brief description of these enforcement actions follows.

    •    February 2008 MOU. The FDIC and CDB entered into an MOU based on the
         results of the October 2007 FDIC examination. The MOU contained 15
         provisions addressing such areas as capital, dividend payments, asset quality, loan
         policies, bank staffing, ALLL, volatile liability dependence, and violations.
         Among other things, the MOU required New Frontier to establish appropriate
         limits to minimize the institution’s dependence on volatile liabilities and conduct
         an independent study of the adequacy of the institution’s lending function.

    •    December 2008 C&D. New Frontier stipulated to a C&D based on the results of
         the September 2008 joint examination. The C&D ordered New Frontier to have
         and retain qualified management, including a new chief executive officer and new
         senior lending officer. The C&D also ordered the institution to, among other
         things, submit written plans for (a) increasing and maintaining an appropriate


                                                   12
       level of capital, (b) eliminating the institution’s reliance on brokered deposits, (c)
       maintaining an appropriate level of liquidity, and (d) reducing the institution’s
       loan concentrations.

Supervisory Response to Key Risks

A stronger supervisory response at earlier examinations may have been prudent in light
of New Frontier’s risk profile and the institution’s lack of adequate or timely action to
address its weak risk management practices. For example, the FDIC could have imposed
an enforcement action requiring that New Frontier commit to a written plan and timeline
for addressing key risks identified by examiners and monitored New Frontier’s
performance relative to the plan. Among other things, the plan could have required New
Frontier to:

   •   Establish reasonable growth projections and parameters for ensuring that loan
       growth was appropriately constrained.

   •   Reduce credit concentrations in its loan portfolio.

   •   Address deficiencies in its loan underwriting, credit administration, and credit risk
       analysis, recognition, and monitoring practices.

   •   Reduce its dependence on non-core funding sources, particularly brokered
       deposits.

We recognize that the February 2008 MOU and December 2008 C&D collectively
addressed the points described above. However, at the time these actions were taken, the
majority of New Frontier’s growth had already occurred, and weak loan underwriting and
credit administration practices were already negatively affecting the quality of the
institution’s loan portfolio. Further, the deteriorating economic environment, coupled
with the institution’s declining credit profile, was seriously limiting the institution’s
contingency funding alternatives. Based on the results of the October 2008 examination,
the probability of New Frontier’s failure was high.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements the requirements of PCA by establishing a framework of restrictions and
mandatory supervisory actions that are triggered by an institution’s capital levels. Based
on the supervisory actions taken with respect to New Frontier, the FDIC properly
implemented applicable PCA provisions of section 38. However, PCA’s effectiveness in
mitigating losses to the DIF was limited because PCA did not require action until the
institution was at serious risk of failure.




                                             13
In the case of New Frontier, capital was a lagging indicator of the institution’s financial
health. At the time of the September 2008 examination, New Frontier was considered
well capitalized for PCA purposes. However, examiners concluded during the
examination that the overall financial condition of the institution was unsound and that
the probability of its failure was high. Based on the results of the September 2008
examination, the FDIC and CDB issued a joint C&D on December 2, 2008, that included,
among other things, a capital provision. The capital provision directed New Frontier to
increase and maintain a Tier 1 Leverage Capital ratio of 8 percent and a Total Risk-Based
Capital ratio of 12 percent—amounts that are greater than required by PCA for well
capitalized institutions (see Table 4 below). As a result of stipulating to the C&D, the
institution became subject to certain restrictions defined in PCA, including the
prohibition on the acceptance, renewal, or roll-over of brokered deposits without a waiver
from the FDIC.

On December 10, 2008, New Frontier submitted a brokered deposit waiver application to
the FDIC. At that time, almost one half of New Frontier’s deposit base consisted of
brokered deposits. On February 13, 2009, the FDIC’s Washington Office approved a
limited brokered deposit waiver totaling $50 million and expiring on March 31, 2009.
The waiver was approved in order to address the bank’s immediate liquidity concerns
while the FDIC’s Division of Resolutions and Receiverships (DRR) completed its asset
valuation and marketing plans and the institution finalized its recapitalization and sale
efforts. Based on the FDIC’s analysis of New Frontier’s Call Report for the quarter
ending December 31, 2008, and the results of the March 2009 visitation, the FDIC and
CDB determined that the quality of New Frontier’s assets had deteriorated to the point
that the institution was significantly undercapitalized for PCA purposes. Table 4
illustrates New Frontier’s capital levels relative to the PCA thresholds for well capitalized
institutions as of the September 2008 examination and March 2009 visitation.

Table 4: New Frontier’s Capital Levels Relative to PCA Thresholds for Well
         Capitalized Institutions
       Capital Ratio              Well Capitalized          September              March 2009
                                    Threshold                 2008                  Visitation
                                                           Examination

 Tier 1 Leverage Capital              5% or more               8.18%                   3.40%
 Tier 1 Risk-Based Capital            6% or more               9.36%                   4.10%
 Total Risk Based Capital            10% or more               10.25%                  5.40%
 Source: OIG Analysis of UBPRs, the September 2008 ROE, and the results of the March 2009
         visitation for New Frontier, as well as Section 38 of the FDI Act and 57 Federal Register
         44866-01.

On March 20, 2009, the FDIC provided New Frontier’s Board with a PCA Notification of
Capital Category letter notifying the institution that its capital category for PCA purposes
had dropped to significantly undercapitalized. The letter directed New Frontier’s
management to submit a capital restoration plan and reminded the institution that it was
subject to certain mandatory restrictions.




                                                     14
Corporation Comments
We issued a draft of this report on October 5, 2009. We subsequently met with
representatives of DSC to discuss the results of our review. Based on our discussion, we
made certain changes to the report that we deemed appropriate. On October 20, 2009, the
Director, DSC, provided a written response to the draft report. The response is provided
in its entirety as Appendix 4 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of New
Frontier’s failure. Regarding our assessment of the FDIC’s supervision of New Frontier,
DSC cited several supervisory activities, discussed in our report, that were undertaken to
address key risks at the institution prior to its failure. In its response, DSC also
recognized that strong supervisory attention is necessary for institutions like New
Frontier that have high CRE and ADC concentrations supported by volatile funding
sources. Accordingly, DSC has issued updated guidance reminding examiners to take
appropriate action when such risks are imprudently managed.




                                            15
                                                                               Appendix 1
                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

The audit objectives were to: (1) determine the causes of New Frontier’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of New
Frontier, including the FDIC’s implementation of the PCA provisions of section 38 of the
FDI Act.

We conducted this performance audit from April 2009 to September 2009, in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an assessment of New Frontier’s operations from
September 30, 2002 until the institution’s failure on April 10, 2009. Our review also
entailed an evaluation of the regulatory supervision of the institution during the same
period.

To achieve the audit objectives, we performed the following procedures and techniques:

   •   Analyzed examination and visitation reports prepared by the FDIC and the CDB
       from 2002 to 2009.

   •   Analyzed available examination work papers prepared by the FDIC and the CDB
       from 2005 to 2009.

   •   Reviewed the following:

       - Institution data contained in UBPRs and Call Reports.
       - Correspondence maintained at the DSC’s Dallas Regional Office and Denver
         Field Office.
       - Reports prepared by DRR and DSC relating to the institution’s closure.




                                             16
                                                                                Appendix 1
                   Objectives, Scope, and Methodology

       -   Reports and selected working papers from the institution’s external auditors,
           Fortner, Bayens, Levkulich, P.C., Denver, Colorado, for the years ended 2005
           through 2007.
       -   Pertinent DSC policies and procedures.

   •   Interviewed the following FDIC officials:

       - DSC managers in Washington, D.C.; Dallas, Texas; and Denver, Colorado.

       - FDIC examiners from the DSC Denver Field Office who participated in New
         Frontier examinations.

   •   Interviewed officials from the CDB of Denver, Colorado, to discuss their
       historical perspective of the institution, its examinations, and other activities
       regarding the CDB’s supervision of the institution.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance With Laws and Regulations

Consistent with our audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC’s systems, reports,
ROEs, and interviews of examiners to obtain an understanding of New Frontier’s
management controls pertaining to the causes of failure and material loss as discussed in
the body of this report. Although we obtained information from various FDIC systems,
we determined that the controls pertaining to these systems were not significant to the
audit objectives, and therefore, did not evaluate the effectiveness of information system
controls. We relied on information from various sources, including ROEs,
correspondence files, and testimonial evidence, to corroborate data obtained from
systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act. The results of our tests are
discussed where appropriate in the report. Additionally, we assessed the risk of fraud and
abuse related to our objectives in the course of evaluating audit evidence.



                                             17
                                                                                    Appendix 2
                                  Glossary of Terms


      Term                                            Definition
Adversely         Assets subject to criticism and/or comment in an examination report.
Classified Assets Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for        Federally insured depository institutions must maintain an ALLL that is
Loan and Lease       adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)        lease portfolio (including all binding commitments to lend). To the extent
                     not provided for in a separate liability account, the ALLL should also be
                     sufficient to absorb estimated loan losses associated with off-balance sheet
                     loan instruments such as standby letters of loan.

Cease and            A C&D is a formal enforcement action issued by a financial institution
Desist Order         regulator to a bank or affiliated party to stop an unsafe or unsound practice
(C&D)                or a violation of laws and regulations. A C&D may be terminated when
                     the bank’s condition has significantly improved and the action is no longer
                     needed or the bank has materially complied with its terms.

Concentration        A concentration is a significantly large volume of economically related
                     assets that an institution has advanced or committed to a certain industry,
                     person, entity, or affiliated group. These assets may, in the aggregate,
                     present a substantial risk to the safety and soundness of the institution.

Prompt               The purpose of PCA is to resolve the problems of insured depository
Corrective           institutions at the least possible long-term cost to the DIF. Part 325,
Action (PCA)         subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                     Regulations, section 325.101, et. seq., implements section 38, Prompt
                     Corrective Action, of the FDI Act, 12 United States Code section 1831(o),
                     by establishing a framework for taking prompt supervisory actions against
                     insured non-member banks that are less than adequately capitalized. The
                     following terms are used to describe capital adequacy: (1) Well
                     Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                     (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                     A PCA Directive is a formal enforcement action seeking corrective action
                     or compliance with the PCA statute with respect to an institution that falls
                     within any of the three categories of undercapitalized institutions.

Special Mention      Special Mention Loans are potentially weak loans or assets which present
Loans                an unwarranted credit risk, but are less risky than substandard assets.
                     These loans are classified as special mention assets when the lender fails
                     to supervise a loan properly or maintain sufficient documentation, or
                     otherwise has deviated from acceptable and prudent lending practices.

Uniform Bank         The UBPR is an individual analysis of financial institution financial data
Performance          and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)        The report is produced by the Federal Financial Institutions Examination
                     Council for the use of banking supervisors, bankers, and the general
                     public and is produced quarterly from Call Report data submitted by
                     banks.


                                               18
                                                                   Appendix 3
                           Acronyms


ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CDB      Banking Board of the Colorado Division of Banking

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

OIG      Office of Inspector General

PCA      Prompt Corrective Action

ROE      Report of Examination

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                  19
                                                                                                                    Appendix 4
                               Corporation Comments



FDII
Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 2029.9990                            Division of SupeNision and ConsulMr Protecio


                                                                            October 20, 2009


MEMORANDUM TO:                         Stephen Beard
                                       Assistant Inspector General for Material Loss Reviews

FROM:                                  Sandra L. Thompson
                                       Director

. SUBJECT:                              Draft Audit Report Entitled, Material Loss Review of          New
                                        Frontier Bank, Greeley, Colorado
                                        (Assignment No. 2009-040)

 Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
 Insurance Corporation's Office of  Inspector General (OIG) conducted a material loss review of
 Ncw Frontier Bank (New Frontier) which failed on April 10,2009. This memorandum is the
 response of the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft
 Report (Report) received on October 2, 2009.

 The Report concludes that New Frontier's failure was due primarily to the pursuit of rapid asset
 growth, particularly from 2005 through 2007, significatly concentrated in commercial real
 estate (CRE), acquisition, development, and construction (ADC) projects and agriculture
 lending. The growth was funded through wholesale or non-core funding sources. Weaknesses in
 loan underwiting, credit administration, and risk analysis and recognition practices were
 prevalent and contrbuted to the overall decline of the institution.

 FDIC examinations during 2004 through 2006 reported growing concern over New Frontier's
 risk profie and their management practices and operations. These risks were brought to the
            the Board and management through the supervisory process. Supervisory attention
 attention of
 ofNew Frontier increased with on-site visitations in both 2006 and 2007. In early 2007, New
 Frontier was placed on the supervisory watch list, and examiners took increasingly stronger
 enforcement actions to address weak risk management practices, culminating in daily liquidity
 monitoring beginning in Novembcr 2008.

 In recognition that strong supervisory attention is necessary for institutions with high CREIADC
 concentrations and volatile funding sources, DSC has issued updated guidance reminding
 examiners to take appropriate action when these risks are imprudently managed.

 Thank you for the opportunity to review and comment on the Draft Audit Report.




                                                         20
